Report No. D-2011-036                February 3, 2011




    Competition Should Be Used for Instructor Services
     for the Mine Resistant Ambush Protected Vehicles
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ADA                           Antideficiency Act
CLIN                          Contract Line Item Number
CONUS                         Continental United States
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FPII                          Force Protection Industries, Inc.
GAO                           Government Accountability Office
HUBZone                       Historically Underutilized Business Zone
J&A                           Justification and Approval
JPO                           Joint Program Office
MCSC                          Marine Corps Systems Command
MRAP                          Mine Resistant Ambush Protected
NET                           New Equipment Training
O&M                           Operations and Maintenance
OCONUS                        Outside the Continental United States
OEM                           Original Equipment Manufacturer
SOW                           Statement of Work
T&M                           Time-and-Materials
TCC                           TACOM Contracting Center
                                 INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON , VIRGINIA 22202-4704




                                                                          February 3,2011

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT Of THE ARMY
              COMMANDER, MARINE CORPS SYSTEMS COMMAND

SUBJECT: Competition Should Be Used for Instructor Services for the Mine Resistant
         Ambush Protected Vehicles (Report No. 0-2011-036)

We are providing this report for review and comment. The Anny awarded a sole-source,
high-risk time-and-materials contract for New Equipment Training instructor services,
valued at $55.5 million, when a competitive, fixed·price contract was a better alternative.
This is the second report in a series addressing the maintenance support contracts for the
Mine Resistant Ambush Protected (MRAP) vehicles. The Assistant Secretary of the
Anny (Financial Management and Comptroller) and the Executive Director, TACOM
Contracting Center, did not respond to the draft report. However, we considered
comments from the Commander, Marine Corps Systems Command, who responded on
behalf of the Program Manager, Joint Program Office for the Mine Resistant Ambush
Protected Vehicles when preparing the final report .

DoD Directive 7650.3 requires that recommendations be resolved promptly. Therefore,
we request that the Assistant Secretary of the Army (Financial Management and
Comptroller) comment on Recomme7ldation B. l, and the Executive Director, TACOM
Contracting Center, comment on Recommendations A.2 and B.2 by March 5,20 II.

If possible, please send a .pdffilc containing your comments to audacm(@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for
your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classi fied comments electronically, you must send them
over the SECRET 1nternet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-920J (OSN 664-9201).



                                      ~0~    Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-036 (Project No. D2009-D000CK-0100.001)                    February 3, 2011


               Results in Brief: Competition Should Be
               Used for Instructor Services for the Mine
               Resistant Ambush Protected Vehicles

What We Did                                              What We Recommend
This is the second report in a series addressing         We recommend that the Program Manager,
the maintenance support contracts for the Mine           Joint Program Office for the MRAP vehicles,
Resistant Ambush Protected (MRAP) vehicles.              perform an analysis of the current Instructor
We reviewed and evaluated the Army’s award               Services requirements and provide the analysis
of contract W56HZV-09-C-0486 for New                     to TCC for use in awarding future contracts for
Equipment Training instructor services                   Instructor Services. We also recommend that
(Instructor Services) for the MRAP vehicles.             the Executive Director, TCC, develop a plan
We determined that the TACOM Contracting                 that addresses procedures and milestones for
Center (TCC) awarded a sole-source,                      competing follow-on contracts for MRAP
time-and-materials contract for Instructor               Instructor Services and, in addition, perform a
Services, valued at $55.5 million, when a                review of the contracting officials’ actions
competitive, fixed-price contract was a better           relating to the circumvention of competition and
alternative.                                             use of an inappropriate contract type.

What We Found                                            We recommend that the Assistant Secretary of
TCC officials did not award the most cost-               the Army (Financial Management and
effective type of contract for MRAP vehicle              Comptroller) initiate a preliminary review of the
Instructor Services. Specifically, TCC officials         potential Antideficiency Act violation for
inappropriately used an urgent and compelling            contract W56HZV-09-C-0486. In addition, we
need to circumvent competition and awarded a             recommend that the Executive Director, TCC,
sole-source contract to a preferred source on a          develop procedures and train contracting
high-risk time-and-materials basis. This                 officials on the requirement to treat option
occurred because TCC officials did not                   periods as separate contracts from base periods
adequately plan for competing the procurement            when obligating funds for severable services.
and did not assess the historical data of TJ FIG’s
performance under a prior firm-fixed-price               Management Comments and
contract. As a result, the contract award may            Our Response
not have provided the best value to the                  The Commander, Marine Corps Systems
Government.                                              Command, who responded on behalf of the
                                                         Program Manager, Joint Program Office for the
Further, TCC officials obligated $23 million for         MRAP vehicles, agreed with the
Instructor Services that were not a bona fide            recommendation, and the comments were
need for FY 2009 because TCC officials                   responsive to the intent of the recommendation.
obligated FY 2009 Operations and Maintenance             We request that the Assistant Secretary of the
funds against a 6-month option for services that         Army (Financial Management and Comptroller)
were not going to be performed until                     and the Executive Director, TCC, provide
January 2010. The incorrect obligation caused a          comments in response to this report by March 5,
potential violation of the Antideficiency Act.           2011. Please see the recommendations table on
                                                         the back of this page.
                                                     i
Report No. D-2011-036 (Project No. D2009-D000CK-0100.001)         February 3, 2011

Recommendations Table

         Management                   Recommendations       No Additional Comments
                                     Requiring Comment            Required
Assistant Secretary of the Army
(Financial Management and
Comptroller)                      B.1.a-c
Program Manager, Joint Program
Office for the Mine Resistant
Ambush Protected Vehicles                                   A.1
Executive Director, TACOM
Contracting Center                A.2.a-b and B.2

Please provide comments by March 5, 2011.




                                            ii
                         Table of Contents

Introduction                                                                       1

      Audit Objectives                                                             1
      Background on Instructor Services Supporting the Mine Resistant Ambush
              Protected Vehicle Program                                            1
      Internal Controls Not Effective for Contracting Practices                    3

Finding A. Questionable Contracting Practices Used to Procure TJ FIG Instructor
Services                                                                        4

      Use of a Sole-Source Contract for Instructor Services Based on an Urgent and
             Compelling Need Decision                                               4
      Army Officials Inappropriately Awarded a High–Risk, Time-and-Materials
             Contract                                                               8
      Management Actions                                                           10
      Recommendations, Management Comments, and Our Response                       11

Finding B. Violation of the Bona Fide Needs Rule and Potential Violation of the
Antideficiency Act                                                              12

      Noncompliance With the Bona Fide Needs Rule                                 12
      Management Actions                                                          14
      Recommendations, Management Comments, and Our Response                      15

Appendix

      Scope and Methodology                                                       16
             Prior Coverage                                                       16

Management Comments

      Department of the Navy                                                      18
      U.S. Marine Corps Systems Command                                           19
Introduction
Audit Objectives
The overall objective of this series of audits was to determine whether the Mine Resistant
Ambush Protected (MRAP) vehicle program and contracting officials were adequately
supporting the MRAP vehicle maintenance requirements and appropriately awarding and
administering maintenance contracts. During the original audit, we identified issues with
the contract awarded to TJ FIG for New Equipment Training (NET) instructor services
(Instructor Services). As a result, this audit focuses only on the award of the Instructor
Services contract.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires
       thorough audits . . . to identify potential waste, fraud, and abuse in the performance of
       (1) Department of Defense contracts, subcontracts, and task and delivery orders for the
       logistical support of coalition forces in Iraq and Afghanistan; and (2) Federal agency
       contracts, subcontracts, and task and delivery orders for the performance of security and
       reconstruction functions in Iraq and Afghanistan.

This is the second in a series of reports addressing maintenance support for MRAP
vehicles. The first report discussed the oversight of Field Services Representatives and
NET instructors (Instructors) from the five MRAP original equipment manufacturers
(OEMs). For this report, we limited our scope to the award of the Instructor Services
contract to TJ FIG. See the Appendix for a discussion of our scope and methodology.

Background on Instructor Services Supporting the
MRAP Vehicle Program
MRAP vehicles are multi-mission platforms capable of mitigating the effects of
improvised explosive devices, mines, and small arms fire. In November 2006, the Joint
Program Office (JPO) for MRAP vehicles (JPO MRAP) was established to manage the
acquisition of MRAP vehicles to meet the needs of all of the Services. Marine Corps
Systems Command (MCSC) managed the JPO MRAP and MRAP vehicle procurement
for all of the Services. A division of the JPO MRAP at TACOM Life Cycle Management
Command in Warren, Michigan, manages the logistics supportability strategy to
effectively, efficiently, and economically sustain the family of MRAP vehicles.




                                                  1
        Source: DefenseImagery.mil and MARCORSYSCOM.usmc.mil

                              Variants of MRAP Vehicles


New Equipment Training Instructors
In January 2007, MCSC contracting officials awarded a contract to each of the following
contractors for MRAP vehicles:

   •    General Dynamics Land Systems-Canada;
   •    BAE Systems Tactical Vehicle Systems, LP;
   •    BAE Systems Land and Armaments, LP;
   •    Force Protection Industries, Inc.; and
   •    NaviStar Defense, LLC

To facilitate the sustainment of the MRAP vehicles and because requirements for the
MRAP vehicles were new and unfamiliar, MCSC contracting officials procured
Instructor Services from the five original MRAP vehicle manufacturers. Specifically, the
Instructors were required to:

    •    provide MRAP vehicle Operator NET and Field-Level Maintainer NET to
         Service members in the Continental United States (CONUS) and Outside the
         Continental United States (OCONUS), and
    •    cross-train other OEM Field Service Representatives, Instructors, mechanics, and
         Government support personnel at the MRAP University in CONUS.




                                            2
In February 2008, according to JPO MRAP officials and MCSC officials, there was an
urgent need to provide Relief in Place/Transfer of Authority training at Camp Buehring
in Kuwait, but the five MRAP contractors could not provide the total requirement for
Instructors. To supplement the Instructors procured from the five MRAP contractors, the
JPO MRAP officials arranged to obtain additional Instructors from the contractor TJ FIG.
An MCSC contracting official stated that after receiving a request from JPO MRAP
officials, Force Protection Industries, Inc. (FPII), one of the MRAP OEMs, awarded a
firm-fixed-price subcontract to TJ FIG in March 2008 to provide the additional
Instructors. Under the subcontract with FPII, MCSC contracting officials ordered
1,010 manmonths 1 of Instructor Services, valued at about $40 million, from TJ FIG.

On July 31, 2009, upon completion of the FPII subcontract with TJ FIG, the TACOM
Contracting Center (TCC) awarded a sole-source contract (W56HZV-09-C-0486) directly
to TJ FIG for Instructor Services. The services consisted of furnishing Mobile Training
Teams that provided training services, which included Operator NET and Field-Level
Maintainer NET at various CONUS and OCONUS locations. The quantity of the
Instructor Services was undefinitized with a total obligated amount of about
$55.5 million.

On July 28, 2010, contract W56HZV-09-C-0486 was definitized for approximately
$27.4 million and the remaining $28.1 million was de-obligated from the contract. For
the purpose of this report, we used $55.5 million, the estimated value of the contract
before definitization.

Internal Controls Not Effective for Contracting Practices
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for the TCC in the procurement of Instructor Services for the MRAP
program. The TCC officials did not comply with competition requirements and did not
adequately support the use of a time-and-materials (T&M) contract to procure Instructor
Services from TJ FIG. In addition, TCC officials did not comply with the Bona Fide
Needs Rule and may have violated the Antideficiency Act (ADA). Implementing the
recommendations contained in this report should correct the internal control weaknesses
we identified. We will provide a copy of the report to the senior official responsible for
internal controls in the Department of the Army.




1
 A manmonth is a unit of measure that represents one Instructor under contract performing services for
1 month.


                                                    3
Finding A. Questionable Contracting
Practices Used to Procure TJ FIG Instructor
Services
TCC officials did not use the most cost-effective type of contract to procure MRAP
vehicle Instructor Services. Specifically, TCC officials inappropriately used an urgent
and compelling need to circumvent competition requirements and awarded a sole-source,
high-risk T&M contract, valued at $55.5 million, to TJ FIG for Instructor Services. This
occurred because TCC officials did not adequately plan for competing the procurement
and did not assess the historical data of TJ FIG’s performance under a prior
firm-fixed-price contract. Also, the award and multiple extensions of the original
subcontract with TJ FIG over 17 months demonstrated JPO MRAP’s preference for
awarding a contract directly to TJ FIG. As a result, the contract awarded may not have
provided the best value and put the Government at risk for higher costs.

Use of a Sole-Source Contract for Instructor Services
Based on an Urgent and Compelling Need Decision
TCC awarded a sole-source contract to TJ FIG for Instructor Services even though other
sources were available for competition. The contract, awarded on July 31, 2009, was
valued at $55.5 million for a performance period of 6 months with the option to extend it
                                  for another 6 months.
     TCC awarded a sole-
  source contract to TJ FIG       The Federal Acquisition Regulation (FAR) Part 6,
    for Instructor Services       “Competition   Requirements,” requires that contracting
  even though other sources officers promote and provide for full and open
       were available for         competition in soliciting offers and awarding Government
          competition.            contracts. If full and open competition is not possible, the
                                  contracting officer is required to prepare a sole-source
justification for contracting for other than full and open competition.

TCC officials stated that the sole-source award for Instructor Services was based on
FAR 6.302-2, “Unusual and Compelling Urgency,” which permits other than full and
open competition when unusual and compelling urgency prevents full and open
competition. Furthermore, TCC officials stated in the justification and approval (J&A)
document that the requirement for training could not be satisfied through full and open
competition because the competitive acquisition process would not support the
requirement in the short timeframe available for procurement, and delaying the MRAP
training acquisition would have had an adverse impact on soldier welfare. However, the
limited timeframe was caused by JPO MRAP officials’ failure to plan for competition
during the approximate 18-month period between identifying a requirement for training
and awarding contract W56HZV-09-C-0486 for Instructor Services. According to an
MCSC contracting official, the JPO MRAP requested MCSC contracting officers to
obtain TJ FIG’s services by subcontracting through FPII, so that JPO MRAP officials
could complete J&A paperwork needed for a sole-source contract to TJ FIG. In addition,


                                              4
TCC officials attempted to award a contract for Instructor Services to XMCO, Inc., as an
Alaska Native 8(a) set-aside, intending to use TJ FIG as a subcontractor when an initial
sole-source award could not be supported.

TCC’s award of a sole-source contract to TJ FIG for Instructor Services eliminated the
potential savings that may have occurred had multiple contractors competed for the
award. The Administrator, Office of Federal Procurement Policy, described the potential
benefits of a competitive award in a May 31, 2007, memorandum, which stated that
competition saves money for the taxpayer, improves contractor performance, curbs fraud,
and promotes accountability for results.

Prior Use of TJ FIG as FPII Subcontractor
According to an MCSC contracting official, JPO MRAP officials requested FPII, one of
the OEMs that also provided Instructor Services, to subcontract Instructor Services to
TJ FIG. The MCSC contracting official also stated that in February 2008, JPO MRAP
officials requested that MCSC contracting officials allow TJ FIG to provide Instructors to
fill an urgent requirement for training. MCSC contracting officials awarded an order for
30 TJ FIG Instructors under the FPII MRAP contract for a performance period of
3 months. An MCSC contracting official explained that this was done in order to provide
JPO MRAP with sufficient time to complete documentation needed to support a sole-
source J&A. The subcontract with FPII was extended for an additional 3 months
because, according to an MCSC contracting official, JPO MRAP officials did not
complete the required J&A paperwork in time to award a contract without a delay in
service. An MCSC contracting official stated that JPO MRAP officials did not forward
the J&A paperwork to MCSC until July 2008. When the MCSC contracting official was
preparing to award a sole-source contract to TJ FIG, the subcontract with FPII was
extended twice for 4 additional months. However, MCSC contracting officials were
unable to award a sole-source contract to TJ FIG because MCSC legal counsel
determined that the J&A was insufficient and that the Instructor Services needed to be
competed. According to an MCSC contracting official, in December 2008, MCSC
contracting officials forwarded the J&A paperwork to the TCC because they assumed
that most of the sustainment efforts for MRAP vehicles were transitioning to the Army.
The subcontract with FPII was extended for 6 additional months so that the TCC could
award a contract to TJ FIG. In addition, 55 CONUS Instructors from TJ FIG were added
to the subcontract for a 6-month performance period. On July 8, 2009, the subcontract
with FPII was again extended for an additional month with 41 OCONUS Instructors and
54 CONUS Instructors procured from TJ FIG. The subcontract was extended 5 times for
a total performance period extension of 14 months in addition to the 3 months originally
ordered.




                                            5
Unsuccessful Attempt to Award a Sole-Source Contract to
XMCO, Inc.
In March 2009, TCC officials attempted to award a contract to XMCO, Inc. as an Alaska
Native 8(a) set-aside instead of competing the effort. TCC officials may have intended
for XMCO, Inc. to use TJ FIG as a subcontractor. The Training Acquisition Plan
required XMCO, Inc. to develop a transition plan to engage and work with TJ FIG, which
could have resulted in a prime-subcontractor relationship. Additionally, a JPO MRAP
logistics and acquisition requirements specialist confirmed that XMCO, Inc. intended to
use TJ FIG as a subcontractor. However, a May 4, 2009, Government Accountability
Office (GAO) bid protest decision stopped the contract award to XMCO, Inc. The GAO
decision required that before awarding a sole-source contract to an Alaska Native 8(a)
set-aside, a contracting activity must determine whether two or more Historically
Underutilized Business Zone (HUBZone) small businesses can fill the requirement. If
two or more HUBZone small businesses are able to fill the requirement, then the
contracting activity must compete the requirement among HUBZone small businesses.
TCC officials found that 95 HUBZone small businesses could potentially fill the
requirement, and as a result, they could not award a contract to XMCO, Inc.

Sole-Source Award Was Based on Compelling Urgency
                                             As a result of the GAO decision, TCC officials
      If JPO MRAP had planned and            did not have adequate time to award a contract
    requested the MCSC Contracting           for Instructor Services competitively.
    Office or the TCC to compete the         Therefore, on July 31, 2009, TCC officials
     effort when the requirement was         awarded a sole-source contract to the
      initially identified in February       incumbent subcontractor, TJ FIG, on the basis
     2008, there would have been no          of unusual and compelling urgency. The
           need for the urgency.             $55.5 million sole-source contract awarded to
                                             TJ FIG could have been avoided had the
procurement been properly planned and pursued as a competitive award from the start. If
JPO MRAP had planned and requested the MCSC Contracting Office or the TCC to
compete the effort when the requirement was initially identified in February 2008, there
would have been no need for the urgency. JPO MRAP’s preference to award the
Instructor Services effort to TJ FIG ultimately generated the unusual and compelling
urgency. The following page shows the timeline of events that led to the TCC assuming
the responsibility as the contracting activity for the Instructor Services effort, the TCC’s
attempt to award a contract to XMCO, Inc., and the award of contract W56HZV-09-C-
0486 to TJ FIG.




                                             6
Timeline of Instructor Services Procurement From TJ FIG




                           7
Army Officials Inappropriately Awarded a High–Risk,
Time-and-Materials Contract
TCC officials did not adequately support the use of a T&M contract for Instructor
Services. TCC officials awarded a T&M contract to TJ FIG because they determined that
the work performed under the contract could not be established in advance. Specifically,
TCC officials stated that the number of vehicles available for training and the number of
soldiers that needed to be trained would be too difficult to predict. In addition, the
contracting officer stated in the determination and findings that the actual cost of
performance could not be estimated with any reasonable degree of confidence at the time
of award to permit establishing a firm-fixed-price or cost-reimbursement-type contract.
The rationale that the contracting officer provided in the determinations and findings is
questionable because the contract awarded to TJ FIG contained specific estimates
regarding the number of Instructors needed to provide training, the number of soldiers
that needed to be trained, and the number of vehicles needed at each training location. In
addition, before TCC officials awarded a prime contract to TJ FIG, the same services
were ordered under firm-fixed-price contract line item numbers (CLINs) for the
17 months that TJ FIG performed as a subcontractor to FPII. Therefore, contracting
officials could have used the knowledge obtained from the previous subcontract with
TJ FIG through the FPII contract to define the requirements in enough detail to use a
fixed-price contract type.

Estimates Listed in the Contract
According to FAR 16.601(c), a T&M contract may be used only when it is not possible at
the time of placing the contract to estimate accurately the extent or duration of the work
or to anticipate costs with any reasonable degree of confidence. T&M contracts provide
no positive profit incentive to the contractor for cost control or labor efficiency.
Additionally, T&M contracts contain fixed hourly rates that include wages, overhead,
general and administrative expenses, and profit for
each category of labor. This makes T&M contracts             T&M contracts provide no
a riskier contract type for the Government because          positive  profit incentive to the
it enables the contractor to earn profit for every          contractor for cost control or
additional hour of work performed. The statement                    labor efficiency.
of work (SOW) provided estimates for the extent of
the work to be performed during the first 90 days of the contract. The SOW stated that
approximately 69 and 51 TJ FIG personnel were to be used to perform CONUS and
OCONUS training efforts, respectively. In addition, the SOW listed nine CONUS
training locations, one training location in Germany, and one training location in Kuwait.
The SOW also stated that approximately 400 students would be trained at each of the
CONUS locations; 300 students would be trained at the Germany location, and
400 students would be trained per 2-week class at the Kuwait location. The SOW further
stated that 12 to 15 vehicles would be needed at each CONUS training location,
40 vehicles were projected to be issued to the Germany location, and 65 vehicles had
been issued to the Kuwait location.

Not only did the SOW estimate the number of training locations, students to be trained at
each location, and vehicles needed at each location for the first 90 days of contract


                                             8
performance, the SOW also contained requirements for the Instructors’ duty hours for the
entire contract. For CONUS Instructors, the SOW required the normal duty week of
5 days, 10 hours a day, with an option of 10 additional hours if directed by the
Government. For OCONUS Instructors, the SOW required a duty week of 7 days,
12 hours a day.

In addition to the estimates and duty hour requirements in the contract, the JPO also
received guidance from the Army Forces Command in the form of a memorandum,
“PDTE 2 MRAP,” which detailed the number of MRAP vehicles to be distributed at
various CONUS locations. The Army Forces Command guidance stated that 644 MRAP
vehicles were to be assimilated into the CONUS training base in 2009. The Army Forces
Command guidance also identified the locations that would receive MRAP vehicles and
the number of MRAP vehicles that would be provided to each identified location.

Even if the estimates had not been included in the contract, TCC officials still should
have considered the prior fixed-price work experience when making the contract type
decision. FAR 16.104(d) states that complex requirements usually result in greater risk
to the Government. As a requirement recurs or as production begins, the cost risk should
shift to the contractor and a fixed-price contract should be considered. Because contract
W56HZV-09-C-0486 was awarded pursuant to the subcontract with FPII that provided
similar services, the requirements for TJ FIG’s Instructor Services were recurring in
nature. Therefore, TCC officials should have considered a fixed-price contract when
awarding contract W56HZV-09-C-0486 to TJ FIG. When we discussed this issue with
TCC officials, they stated that they had considered the use of a fixed-price contract
before awarding contract W56HZV-09-C-0486. However, TCC officials could not
provide any documentation supporting their assertion that they had considered a fixed-
price contract for this sole-source award to TJ FIG.

Training Services Previously Ordered Under a Firm-Fixed Price
Contract
TCC officials could also estimate the work as evidenced by the subcontract with TJ FIG
through FPII MRAP vehicle contract M67854-07-D-5031. MCSC contracting officials
ordered Instructor Services, valued at approximately $39.6 million, from TJ FIG for
17 months, using the firm-fixed-price CLINs under the FPII MRAP vehicle contract. If
more Instructors were needed than originally ordered, MCSC contracting officials could
modify the delivery order by incorporating the instructor increase into the existing CLIN
for the Instructors. For example, MCSC contracting officials used CLIN 2000 to initially
order 90 manmonths of Instructor Services. When the additional requirement of 9
manmonths arose, MCSC contracting officials placed the increased requirement against
CLIN 2000 for a total of 99 manmonths. Furthermore, if the Instructors’ performance
period needed to be extended, then MCSC contracting officials created a new CLIN for
the extension period. For example, when the subcontract was extended from June 30,
2009, to July 31, 2009, MCSC contracting officials added CLIN 2007 to the contract in


2
    PDTE is an acronym for pre-deployment training equipment.


                                                    9
order to obtain an additional 41 manmonths of Instructor Services. In our opinion, TCC
officials could have reasonably used similar contracting methods when they ordered
Instructor Services from TJ FIG.

Summary
Although TJ FIG was the incumbent subcontractor under a prime contract providing
Instructor Services in CONUS and Kuwait, TCC officials should have competed the
effort when awarding a prime contract to TJ FIG. TCC officials used the basis of unusual
and compelling urgency to award contract W56HZV-09-C-0486 as a sole-source
contract; however, the unusual and compelling urgency was caused by JPO MRAP’s
delays in trying to continue to award the Instructor Services effort to TJ FIG.
Additionally, TCC officials should not have awarded contract W56HZV-09-C-0486 as a
T&M contract because information pertaining to the extent of work required was
available. Specifically, the contract included the estimated number of soldiers that were
expected to be trained and the vehicles required at each training location. Further,
TJ FIG was the incumbent subcontractor who provided the same services under firm-
fixed-price CLINs to JPO MRAP through the FPII MRAP vehicle contract. TCC
officials should have exercised more diligence and professional care in performing their
duties as contracting officials.


Management Actions
JPO MRAP officials made a recommendation to the TCC to procure follow-on Instructor
Services through competition among small businesses. TCC officials coordinated with
the TACOM Small Business Office to facilitate a small business 8(a) set-aside
competition. However, current actions indicate that the TCC has not taken adequate
steps to compete the effort for Instructors. Specifically, on July 28, 2010, TCC officials
extended the sole-source contract W56HZV-09-C-0486 for an additional 5 months with
an option for another 7 months. We question the need for a 5-month extension plus an
option when TCC should have started planning to compete a follow-on contract in July
2009 after contract W56HZV-09-C-0486 was awarded. The Under Secretary of Defense
for Acquisition, Technology, and Logistics signed a June 28, 2010, memorandum that
provides a framework for restoring affordability to the DoD’s purchases of goods and
services. The framework calls for the support of a continuous competitive environment
and the phase-out of T&M type contracts. By extending contract W56HZV-09-C-0486,
TCC officials did not take appropriate actions to execute the direction of the Under
Secretary of Defense for Acquisition, Technology, and Logistics for restoring
affordability in Defense spending.




                                            10
Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Program Manager, Joint Program Office for the Mine
Resistant Ambush Protected Vehicles, perform an analysis of the current instructor
service requirements and provide the analysis to the TACOM Contracting Center
for use in awarding future contracts for Instructor Services.

Commander, Marine Corps Systems Command Comments
The Commander, MCSC, responded on behalf of the Program Manager, JPO MRAP.
The Commander, MCSC, agreed, stating that the Program Manager, JPO MRAP, was
performing an analysis of the Instructor Service requirements and would provide the
results of the analysis to the TCC. He further stated that the JPO MRAP and the TCC
have coordinated efforts to pursue competition for Instructor Services, and the projected
contract award date is June 2011.

Our Response
The comments were responsive, and no further comments are required.

A.2. We recommend that the Executive Director, TACOM Contracting Center:

       a. Develop a plan that addresses procedures for seeking, promoting, and
sustaining competition for follow-on contracts for Mine Resistant Ambush
Protected vehicle Instructor Services. The plan should also provide specific
milestones for competing future contracts for Instructor Services.

       b. Perform a review of the contracting officials actions relating to the
circumvention of competition and use of an inappropriate contract type for the
procurement of the Instructor Services for the Mine Resistant Ambush Protected
Vehicle program, and initiate, as appropriate, any administrative actions warranted
by the review.

Management Comments Required
We granted the U.S. Army Materiel Command an extension to the date by which we
needed to receive comments. Despite the extension, the U.S. Army Materiel Command
did not provide comments to the draft report.




                                            11
Finding B. Violation of the Bona Fide Needs
Rule and Potential Violation of the
Antideficiency Act
TCC officials obligated $23 million for Instructor Services that were not a bona fide need
for FY 2009. TCC officials did not meet the Bona Fide Needs Rule because they
obligated FY 2009 Operations and Maintenance (O&M) funds for a 6-month option
period award that did not begin until January 2010. Obligating the FY 2009 funds for the
option work to be performed in FY 2010 resulted in a potential ADA violation.

Noncompliance With the Bona Fide Needs Rule
TCC officials obligated $23 million in FY 2009 O&M funds for Instructor Services
procured from TJ FIG that were not a bona fide need for that year. According to the
Bona Fide Needs rule as defined by section 1502, title 31, United States Code, “Balances
Available,” the balance of an appropriation or fund limited for obligation to a definite
period is available only for the payment of expenses properly incurred during the period
of availability or to complete contracts properly made within that period of availability.
The appropriation or fund is not available for expenditure beyond the period unless
authorized by law. However, an exception exists for contracts that procure severable
services that extend across fiscal years.

The contract awarded to TJ FIG was an undefinitized contractual action with an obligated
value of approximately $27.2 million and a ceiling price of approximately $55.5 million.
Of the $27.2 million, TCC officials obligated approximately $15.9 million against the
                                     6-month base period CLINs that had a period of
    Consequently, TCC officials      performance from July 2009 to December 2009 and
      obligated $23 million in       $11.3 million against a 6-month option period CLIN
     FY 2009 O&M funds for a         that had a period of performance from January 2010
     contract option that had a      to July 2010. The option period CLIN was exercised
    period of performance from       on July 31, 2009, the date the base contract was
       January 2010 through          awarded. TCC officials obligated the $27.2 million
             July 2010.              of FY 2009 O&M funds in accordance with Defense
Federal Acquisition Regulation Supplement (DFARS) 217.7404-4(a) “Limitations on
Obligations,” which limits obligations to no more than 50 percent of the not-to-exceed
price before definitization. In September 2009, the $27.2 million obligated value
was increased to $55.5 million after the Acting Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) waived the limitations in accordance with
DFARS 217.7404-5(b)(1), which states that the head of an agency may waive limitations
for undefinitized contractual actions if the head of the agency determines that the waiver
is necessary to support a contingency operation. However, the purpose of the waiver was
to use funds that were to expire in FY 2009 for undefinitized contractual actions. As a
result, TCC officials increased the original $11.3 million obligation for the option period
CLIN by an additional $11.7 million for a total obligation of $23 million. Consequently,
TCC officials obligated $23 million in FY 2009 O&M funds for a contract option that
had a period of performance from January 2010 through July 2010. As such, the


                                            12
Instructor Services obtained under the option CLIN could not have been a bona fide need
for FY 2009.

Severable Services Crossing Fiscal Years
Severable services are defined as services that are continuing and recurring in nature.
Additionally services are considered severable if they can be divided into components
that independently meet an agency’s needs. An agency realizes the benefit of severable
services at the time they are provided even though the contract has not been performed to
completion. Examples of severable services include lawn maintenance, janitorial, and
security services. TJ FIG provided training that consisted of individual 40-hour sessions
for each class, and Instructors were deployed to training sites to provide the 40-hour
sessions whenever the need arose for soldiers to be trained. Therefore, the training
services would be considered severable services.

An exception to the Bona Fide Needs Rule exists for contracts ordering severable
services that cross fiscal years. Section 2410a, title 10, United States Code, “Contracts
for Periods Crossing Fiscal Years: Severable Services Contracts; Leases of Real or
Personal Property,” allows for contracts that procure severable services that cross fiscal
years to be financed through funding available during the year the contract was awarded,
as long as the contract period does not exceed one year. Although contract W56HZV-09-
0486 procured severable services with a period of performance that began in FY 2009
and ended in FY 2010, the exception would apply only to the base period CLINs and not
the option period CLIN that began in FY 2010. Defense Finance Accounting Service
Regulation 37-1, chapter 8, “Obligation Management,” states that option years are treated
as new contracts; therefore, when a severable service contract has renewal options, funds
are obligated only for the basic period. TCC should not have obligated FY 2009 O&M
funds for the option CLIN on contract W56HZV-09-C-0486 because the period of
performance for the option CLIN did not begin until January 2010. Therefore, the bona
fide need existed in FY 2010, not FY 2009, and TCC officials had no basis for obligating
the $23 million of FY 2009 O&M funds.

The acquisition strategy for contract W56HZV-09-C-0486 stated that the contract was
awarded with an option period because JPO MRAP calendar year funding constraints
necessitated the award of the action in two parts. TCC officials explained that the
contract was initially established with an option period because only the first 6 months of
funding was available. However, the remainder of the funding became available
immediately before the award date, and as a result, TCC officials awarded the option at
the same time as the base contract. When we asked why the option period remained on
the contract, TCC officials stated that the option period remained on the contract to show
that the CLIN ordered was originally established as an option. This noncompliance
with the Bona Fide Needs Rule may lead to a potential ADA violation. DoD
Regulation 7000.14-R, “Financial Management Regulation,” volume 14, chapter 2, states
that the ADA prohibits obligations and expenditures in excess of or before an
appropriation and is the primary foundation for the administrative control of funds.




                                            13
Management Actions
After we informed TCC officials of the Bona Fide Needs Rule violation that could result
in an ADA violation, they modified contract W56HZV-09-C-0486. On July 16, 2010,
TCC officials modified the contract to extend the original 6-month period of performance
(July 2009 to December 2009) for an additional 6 months. JPO MRAP and TCC officials
asserted that it was always the intention to award a contract to TJ FIG for 12 months of
services as referenced throughout the contract including contract sections B, F, and I.
The contract option was established only for funding purposes. In addition, TCC
officials modified the 6-month option period CLIN (CLIN 0002AA) that originally
covered Instructor Services from January to July 2010 to be used only for materials,
travel, and other direct costs.

JPO MRAP and TCC officials may have intended for contract W56HZV-09-C-0486 to be
a 12-month contract, but the contract was constructed to include a 6-month base period
and a 6-month option period as illustrated by various sections of the contract. Contract
W56HZV-09-C-0486, awarded on July 31, 2009, includes the following language
regarding period of performance.

   •   Section A, Executive Summary, paragraph 1.1 states:

              This contract has a period of performance of six (6) months with the
              option to extend for another six (6) months. The total period of
              performance to include the option is one (1) year.

   •   Section B, Supplies or Services and Prices/Costs, contains CLIN information
       including performance completion date of July 31, 2010, for each CLIN listed.

   •   Section C, Statement of Work, paragraph C.5, Period of Performance, states that
       “Base Period Effort is July 2009 – December 2009, and Option Period is January
       2010 – July 2010.”

   •   Section F, Deliveries or Performance, paragraph F.1.1, Period of Performance,
       states:

              The period of performance for this contract is six (6) months with the
              option to extend for another six (6) months. The total period of
              performance including the option is twelve (12) months.

   •   Section I, Contract Clauses, Option paragraph states:

              Based on the exercise by the Government of the option described in
              CLIN 0002AA above, the term of this contract shall be 12 months
              ending on the performance completion date stated above at CLINS
              0001AA, 0001AB, and 0002AA.

Various sections of the contract may have referred to a 12-month performance, but the
12-month performance was used in the context of the total period of performance of the
6-month base period with the 6-month option exercised. In addition, though the 6-month


                                               14
option was exercised at the time the base contract was awarded, the exercise of the option
did not constitute one continuous contract for 12 months. An option period is considered
a separate contract action. Because TCC officials did not award the contract as a
12-month contract or modify the contract to remove the option period before the base
period expired, the intentions of JPO MRAP and TCC officials bear no legal substance.

Furthermore, the TCC’s action to modify the original 6-month period of performance
almost 7 months after the period ended was not appropriate and did not eliminate the
Bona Fide Needs Rule violation that resulted in a potential ADA violation. The base
period constituted a separate contract from the option period; and therefore, TCC officials
did not have the legal authority to modify the base contract because it no longer existed.


Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller):

       a. Initiate a preliminary review of the potential $23 million Antideficiency
Act violation on contract W56HZV-09-C-0486.

      b. Comply with the reporting requirement in DoD Regulation 7000.14-R,
“Financial Management Regulation,” volume 14, chapter 2, “Administrative
Control of Funds and Antideficiency Act Violations,” if any violations occurred.

       c. Provide a copy of the preliminary review report and the final investigation
report to the Department of Defense Office of Inspector General.

Management Comments Required
We did not receive comments from the Assistant Secretary of the Army (Financial
Management and Comptroller) on the draft report.

B.2. We recommend that the Executive Director, TACOM Contracting Center,
develop procedures and train contracting officials on the requirement to treat
option periods as separate contracts from base periods when obligating funds for
severable service contracts as required by Defense Finance and Accounting Service
Regulation 37-1, chapter 8, “Obligation Management.”

Management Comments Required
We granted the U.S. Army Materiel Command an extension to the date by which we
needed to receive comments. Despite the extension, the U.S. Army Materiel Command
did not provide comments to the draft report.




                                            15
Appendix. Scope and Methodology
We conducted this performance audit from December 2009 through November 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We collected, reviewed, and analyzed documents that were dated from November 2006
through July 2010. Specifically, we reviewed the FPII subcontract to TJ FIG, contract
W56HZW-09-C-0486 and its modifications, the TJ FIG justification and approval, the
determination and findings to use a T&M contract, and the quality assurance surveillance
plan.

We reviewed applicable contracting regulations including the FAR and the DFARS. We
interviewed contracting and program office personnel from the Joint Program Offices at
Marine Corps System Command and TACOM Life Cycle Management Command. We
also went to Kuwait in July 2009 to perform fieldwork for the first of the series of MRAP
audits. In Kuwait, we visited Camp Buehring. While in Kuwait, we interviewed TJ FIG
personnel. We limited the scope of this audit to include only TJ FIG Instructors.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a web-based system that provides online access to
acquisition-related documents. We used these documents to evaluate the contracts to
TJ FIG for Instructor Services and to determine the number of TJ FIG Instructors ordered
under the subcontract with FPII. We compared our analysis of the contracts with data
provided by the contracting office to verify the number of TJ FIG Instructors ordered.
From these procedures, we are confident that the Electronic Document Access Web site
was sufficiently reliable for the purpose of acquiring contract documents for our analysis
of TJ FIG Instructors.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD Inspector
General (DoD IG), and the U.S. Army Audit Agency (AAA) have issued five reports
discussing the MRAP vehicles. Unrestricted GAO reports can be assessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted AAA reports can be found at
http://www.aaa.army.mil/reports.htm.

GAO
GAO Report No. GAO-08-884R, “Rapid Acquisition of Mine Resistant Ambush
Protected Vehicles,” July 15, 2008



                                           16
DoD IG
DoD IG Report No. D-2010-068, “Government Oversight of Field Service
Representative and Instructor Services in Support of the Mine Resistant Ambush
Protected Vehicle Program,” June 17, 2010

DoD IG Report No. D-2009-046, “Procurement and Delivery of Joint Service Armor
Protected Vehicles,” January 29, 2009

DoD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,”
June 27, 2007

AAA
AAA Report No. A-2009-0221-ALA, “Effect of Mine Resistant Ambush Protected
Vehicle Upon Tactical Vehicle System Requirements,” September 21, 2009




                                          17
Department of the Navy Comments




                  Click to add JPEG file




                                 18
U.S. Marine Corps Systems Command Comments




                 Click to add JPEG file




                                19
Click to add JPEG file




               20
